                                     Executive Summary

                                     Independent Evaluation of the FDIC’s
                                     Information Security Program—2013
                                                                                      Report No. AUD-14-002
                                                                                             November 2013

Why We Did The Audit
The Federal Information Security Management Act of 2002 (FISMA) requires federal agencies, including
the FDIC, to perform annual independent evaluations of their information security programs and practices
and to report the evaluation results to the Office of Management and Budget (OMB). FISMA states that
the independent evaluations are to be performed by the agency Inspector General (IG), or an independent
external auditor as determined by the IG.

The objective of this performance audit was to evaluate the effectiveness of the FDIC’s information
security program and practices, including the FDIC’s compliance with FISMA and related information
security policies, procedures, standards, and guidelines.

Background
Key to achieving the FDIC’s mission of maintaining stability and public confidence in the nation’s
financial system is safeguarding the sensitive information, including personally identifiable information
that the FDIC collects and manages in its role as federal deposit insurer and regulator of state nonmember
financial institutions. As an employer, an acquirer of services, and a receiver for failed institutions, the
FDIC also obtains considerable amounts of sensitive information from its employees, contractors, and
failed institutions. Implementing proper controls over this information in an environment of increasingly
sophisticated security risks and global connectivity underscores the importance of a strong, enterprise-
wide information security program.

FISMA requires federal agencies, including the FDIC, to develop, document, and implement agency-wide
information security programs to provide security for their information and information systems and to
support the operations and assets of the agencies, including information and information systems that are
provided or managed by another agency, contractor, or other source. FISMA directs the National Institute
of Standards and Technology (NIST) to develop risk-based standards and guidelines to assist agencies in
defining security requirements for their information systems. In addition, OMB issues information
security policies and guidelines for federal information resources pursuant to various statutory authorities.
Further, the Department of Homeland Security (DHS) exercises primary responsibility within the
Executive Branch for the operational aspects of federal agency cyber security with respect to the federal
information systems that fall within the scope of FISMA. DHS’s responsibilities include overseeing
agency compliance with FISMA and formulating analyses for OMB’s use in the development of its
annual FISMA report to the Congress.

To address our objective, we performed audit procedures to evaluate the 11 security control areas outlined
in DHS’ November 30, 2012 document entitled, FY 2013 Inspector General Federal Information Security
Management Act Reporting Metrics. We evaluated the effectiveness of security controls in these areas by
designing audit procedures to assess consistency between the FDIC’s security controls and FISMA
requirements, OMB policy and guidelines, and applicable NIST standards and guidelines. Our work
included testing of selected servers and desktops and a review of the FDIC’s oversight of an outsourced
information service provided by Innovative Discovery.




                                                      i
  Executive Summary                 Independent Evaluation of the FDIC’s Information
                                    Security Program—2013
                                                                                    Report No. AUD-14-002
                                                                                           November 2013


Audit Results
We concluded that the FDIC had established and maintained many information security program controls
and practices that were generally consistent with FISMA requirements, OMB policy and guidelines, and
applicable NIST standards and guidelines. Notably, the FDIC had established security policies and
procedures in almost all of the security control areas we evaluated. The FDIC was also working to
develop a formal concept-of-operations document that describes a corporate-wide approach to
information security continuous monitoring.

To address current and emerging risks in the information technology (IT) and information security
environments, the FDIC made significant changes to its security governance structure during 2013. Such
changes included the realignment of the roles and responsibilities of the Chief Information Officer (CIO),
Chief Information Security Officer, and Information Security and Privacy Staff. The FDIC also
established an IT/Cyber Security Oversight Group to provide a senior-level forum for addressing cyber
security threats and developments impacting both the FDIC and the banking industry. Such changes are
positive and better position the FDIC to address information security risks from a corporate perspective.
We plan to more fully assess the implementation of these security governance changes as part of our
future audit and evaluation work.

Notwithstanding these accomplishments, we determined that continued management attention and control
improvements are needed to more effectively identify, evaluate, and mitigate risk to the FDIC’s
information systems and data, particularly in the areas of Incident Response and Reporting, Risk
Management, Configuration Management, Outsourced Information Systems and Services, and
Contingency Planning. Specifically, the FDIC needed to strengthen its incident response policies and
procedures to address sophisticated, cyber-based security incidents and update its corporate information
security risk management policy to reflect changes in its risk management processes and governance.
The FDIC can also take additional steps to help ensure that certain servers and workstations are patched
to protect against known vulnerabilities. In addition, greater emphasis needs to be placed on assessing
risks associated with the FDIC’s outsourced information systems and services where limited progress has
been made in the last year. Finally, further analysis is warranted to ensure that information systems
supporting mission essential functions can be recovered within the timeframes needed to support those
functions.

Recommendations and Corporation Comments
Our report contains 15 recommendations intended to improve the effectiveness of the FDIC’s information
security program controls and practices. In many cases, the FDIC was already working to strengthen
security controls in these areas during our audit. We identified certain other matters that we did not
consider significant in the context of the audit objective, and we communicated those separately to
appropriate FDIC management officials.

On November 19, 2013, the Acting CIO and the Director, Division of Administration, provided a written
response to a draft of this report. In the response, FDIC management concurred with all 15 of the report’s
recommendations and described ongoing and planned corrective actions that were responsive.




                                                    ii
  Executive Summary                 Independent Evaluation of the FDIC’s Information
                                    Security Program—2013
                                                                                    Report No. AUD-14-002
                                                                                           November 2013

Because this report contains sensitive information, we do not intend to make the report available to the
public in its entirety. We will, however, post this Executive Summary on our public Web site.

Reliability of Previously-Issued FISMA Audit Reports

In a memorandum entitled, Planned Actions to Address New Information Associated with Previously
Issued Audit Reports on the FDIC’s Information Security Program, dated May 30, 2013, the IG notified
the FDIC Chairman that the OIG had become aware of new information related to the FDIC’s information
security program that could affect the reliability of certain findings and conclusions in our prior audit
reports, entitled Independent Evaluation of the FDIC’s Information Security Program—2011 (Report No.
AUD-12-002, dated October 31, 2011) and Independent Evaluation of the FDIC’s Information Security
Program—2012 (Report No. AUD-13-003, dated November 5, 2012). These reports were not made
available to the public due to the sensitive nature of the information they contained. Only the reports’
Executive Summaries, which did not contain sensitive information, were posted on the OIG’s public Web
site.

Consistent with Government Auditing Standards, we provided notice on our public Web site and to users
of the referenced FISMA reports that the associated findings and conclusions may not be reliable. As part
of this year’s audit, we performed expanded audit procedures to assess the impact of the new information
on the findings and conclusions in the earlier reports. Based on those procedures, we determined that the
findings and conclusions related to Incident Response and Reporting and Risk Management in both
reports were not reliable, but that the reports’ other findings and conclusions were reliable and the
associated recommendations were valid. The results of our expanded audit procedures are described in
our current year FISMA report. We plan to post a new notice on our public Web site that accompanies
the Executive Summaries and clarifies the findings and conclusions therein for the two prior-year reports.




                                                    iii
